STATE OF NEBRASKA

Office of the Attorney General

2115 STATE CAPITOL BUILDING
LINCOLN, NE 68509-8920
(402) 471-2682
TDD (402) 471-2682
FAX (402) 471-3297 or (402) 471-4725

 

JAMES D. SMITH

DOUGLAS J. PETERSON Solicitor General

ATTORNEY GENERAL,

November 12, 2019

Scott Harris

Clerk of the United States Supreme Court
One First Street, N.E.

Washington, D.C. 20543

Re: Jenkins v. Nebraska, No. 19-514
Capital Case
Rule 30.4 extension request — unopposed

Dear Mr. Harris:

The Respondent State of Nebraska requests an extension to and including
December 20, 2019, to file its response brief in opposition to the Petitioner's petition
for a writ of certiorari. Petitioner’s counsel of record has advised the State’s
undersigned counsel that there is no objection to this request.

The extension request is made to adjust workload because of undersigned
counsel’s competing due dates in state and federal appellate courts for other cases.

Sincerely,

PD Smith

James D. Smith
Solicitor General

Counsel of Record
ames.smith@nebraska.gov
Tel: 402-471-2686
Fax: 402-471-3297

 

State of Nebraska, Respondent

pe: David D. Cole, counsel of record for Petitioner
